           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
 INFORMING BENEFICIARIES OF DOMESTIC
      ELECTRONIC BANKING OPTIONS

     November 2010    A-15-09-19075




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 30, 2010                                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Informing Beneficiaries of Domestic Electronic
           Banking Options (A-15-09-19075)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           informed beneficiaries of all their domestic electronic banking services options.

           BACKGROUND
           In April 1996, Congress passed the Debt Collection Improvement Act (DCIA), 1 which
           requires that Federal payments, subject to certain exceptions, be made electronically as
           of January 1999. 2 The use of Electronic Funds Transfer (EFT) provides a more secure,
           reliable, and cost-effective method of payment than paper checks. For example, the
           Government spends $1.03 to issue a paper check whereas it only costs $.105 to issue
           an EFT.

           As of November 2009, approximately 60 million beneficiaries were receiving Old-Age,
           Survivors and Disability Insurance (OASDI) 3 and/or Supplemental Security Income
           (SSI) 4 benefit payments. Of these beneficiaries, approximately 9.6 million (16 percent)
           received their payments in the form of paper checks.



           1
               Pub. L. No. 104-134, Title III, Chapter 10, § 31001, 110 STAT. 1321-358 to 1321-380.
           2
               Pub. L. No. 104-134, supra at § 31001(x), 110 STAT. 1321-376, codified at 31 U.S.C. § 3332(f).
           3
            The OASDI program, established under Title II of the Social Security Act (Act), § 201 et seq., 42 U.S.C.
           § 401 et seq. provides benefits to wage earners and their families in the event the wage earner retires,
           becomes disabled, or dies. OASDI benefits are paid from the Social Security OASDI Trust Funds.
           4
             The SSI program, established under Title XVI of the Act, § 1601 et seq. 42 U.S.C. § 1381 et seq.
           provides benefits to financially needy individuals who are aged, blind, and/or disabled. SSI payments are
           financed from general tax revenues.
Page 2 - The Commissioner


The use of direct deposit and other electronic banking services provides many benefits
to users, including (1) better protection against identity theft and fraud, (2) easier access
to funds during emergencies and natural disasters, and (3) more control over their
money.

This report focuses on domestic banking in the United States, American Samoa, Guam,
the Northern Marianna Islands, Puerto Rico, and the Virgin Islands. We understand the
three electronic transfer methods described in this report may not be available in all
foreign countries.5 For beneficiaries living outside the areas mentioned above,
additional information on available transfer methods can be obtained from the
respective U.S. Embassy or Consulate.

According to SSA, the Department of the Treasury (Treasury) supports the delivery of
Federal benefit payments through three electronic transfer methods (listed in order of
preference): (1) Direct Deposit Payments, (2) Direct Express® debit card, and
(3) Electronic Transfer Account (ETA).

Direct Deposit Payments

Since 1985, SSA has participated in Direct Deposit Payments. Before Congress
passed the DCIA in April 1996, SSA electronically deposited 53.5 percent of the total
number of OASDI and SSI payments in Fiscal Year (FY) 1995. In FY 1999, Treasury,
on behalf of SSA, electronically deposited 71 percent of the combined OASDI and SSI
benefit payments. Each year since FY 1999, SSA has increased its reliance on direct
deposit as a method for issuing payments. As of November 2009, Treasury, on behalf
of SSA, electronically deposited 83.8 percent of the combined OASDI and SSI benefit
payments. A breakdown of direct deposit use by program shows that approximately
45 million (86 percent) OASDI beneficiaries electronically deposited their payments,
whereas the total for SSI payments was approximately 5 million beneficiaries
(64 percent). 6




5
    ETA is not available outside the United States and its territories.
6
  According to SSA, all types of bank accounts are included in the percentage statistics for direct deposit,
including the ETA and Direct Express® debit card accounts.
Page 3 - The Commissioner



                     Trend in Direct Deposit Participation
                               FYs 1999 - 2010
                                OASDI  SSI    Combined OASDI & SSI
    Percentage of Beneficiaries
        100.0
         90.0
         80.0
         70.0
         60.0
         50.0
         40.0
         30.0
         20.0
         10.0
           -
                1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009 2010
                                             Fiscal Year (FY)



While there are many benefits of using an existing bank account for direct deposit,
including protection from lost or stolen benefit checks, many banks charge high fees.
According to a September 2009 study conducted by Bankrate.com, 7 average automated
teller machine (ATM) surcharges in 2009 were $2.22, while the average fee to use the
ATM that belonged to another bank was $1.32; therefore, if a customer used another
bank’s ATM, the average surcharge would be $3.54. One large bank announced in
November 2009 that it would be charging its checking account customers $7.50 per
month unless they maintain a $1,500 minimum balance. High account fees can
contribute to financial hardships for those beneficiaries who depend on their monthly
Social Security benefit as their main or only source of income. As stated in SSA’s
FY 2009 Performance and Accountability Report, among elderly Social Security
beneficiaries, 20 percent of married couples and 41 percent of unmarried individuals
rely on Social Security for 90 percent or more of their income.

Direct Express® Debit Card

The Direct Express® debit card is a prepaid debit card recommended by Treasury that
is made available to Social Security beneficiaries and SSI recipients through Comerica
Bank, as Treasury’s financial agent. The debit card can be used 24 hours per day,
7 days per week to get cash at an ATM and at banks and make purchases at retail
locations that honor MasterCard.


7
 “2009 Checking Study,” September 30, 2009, Bankrate.com
http://www.bankrate.com/finance/checking/2009-checking-study.aspx.
Page 4 - The Commissioner


The Direct Express® debit card began as a pilot project. On December 27, 2006,
Treasury mailed a letter and brochure to 35,000 OASDI and SSI paper check recipients
residing in the Chicago area and rural areas of southern Illinois to determine whether
paper check recipients would be interested in signing up to receive their monthly
payment via a Direct Express® card. 8 Treasury selected its financial agent, JP Morgan
Chase, as the financial institution to participate and oversee the pilot debit card.

On January 4, 2008, Treasury announced the selection of Comerica Bank to replace JP
Morgan Chase as the operating bank for the Direct Express® card program. The
program with Comerica Bank began in April 2008 and went nationwide in June 2008.
Individuals enrolled in the Direct Express® card program before April 1, 2008 (the pilot
project) were given the options of (1) signing up for a new Direct Express® card by
calling a toll-free number or visiting www.USDirectExpress.com; (2) signing up for direct
deposit to their personal checking or savings account; or (3) signing up for a different
card from their JP Morgan Chase account. JP Morgan Chase continues to operate the
Direct Express® card program for approximately 3,000 accounts where cardholders
never left the program after several letters offering them options.

In April 2008, OASDI and SSI recipients outside the pilot group began receiving
informative inserts with their paper benefit checks introducing the Direct Express® card.
Enrollment for the Direct Express® debit card was no longer limited to the pilot group.
Individuals from any State who inquired about the debit card could also enroll in the
debit card program.

As of November 2009, Treasury reported that 803,321 OASDI and SSI recipients had
signed up for the Direct Express® debit card. We were not able to independently verify
the number of beneficiaries enrolled in Direct Express® as reported by Treasury.
However, based on our analysis of data from 1 segment of SSA beneficiaries, we
estimate that approximately 343,342 (43 percent) of the 803,321 recipients were OASDI
beneficiaries, and approximately 459,979 (57 percent) were SSI recipients. Please
refer to Table 1 for our estimated distribution of the number of OASDI and SSI
beneficiaries.




8
 The Direct Express® card allows individuals who do not have a bank account to access their funds with
a debit card. Unlike most checking and savings accounts, the Direct Express card allows beneficiaries to
perform most of their banking services free of service charges. There are fees for a limited number of
optional transactions and services, most of which are at minimal cost to the beneficiary.
Page 5 - The Commissioner


      Table 1: Number of SSA Beneficiaries by Payment Method as of November 2009
                       Direct
                      Express®           Direct Deposit9         Paper Checks             Total
    OASDI                 343,342             44,875,905             6,879,914          52,099,161
    Percentage              0.66%                86.14%                 13.20%            100.00%

    SSI                     459,979              4,542,644              2,769,321         7,771,944
    Percentage               5.92%                 58.45%                 35.63%           100.00%

    Total                   803,321             49,418,549              9,649,235       59,871,105
    Percentage               1.34%                 82.54%                 16.12%          100.00%

The Direct Express® debit card provides the same safety benefits as using an existing
bank account for direct deposit. Although the beneficiary cannot write checks, the debit
card can be used to purchase everyday necessities and pay bills. Comerica Bank does
not charge a sign-up fee or a monthly account fee for debit card users. Many of the
program’s services are provided free of charge, while other service fees range from
$.50 to $1.50 each.

ETA

In September 1999, Treasury introduced ETA, which is a low-cost, direct deposit option
for beneficiaries who either do not have a bank account or do not wish to use their own
bank account for direct deposit of benefit payments. Individuals who receive a Federal
benefit, wage, salary, or retirement payment (including OASDI and SSI) may be eligible
to open an ETA regardless of whether they have an existing account at a financial
institution. An ETA is not a checking account, and there are no required minimum
balances unless required by law. Participants receive a monthly statement that lists all
deposits and withdrawals. In December 2008, Treasury reported on its Website that the
ETA costs approximately $3.00 or less per month. Financial institutions enroll with
Treasury to participate in this program. Many small area banks and a few large national
banks participate in this program. 10 As of February 2009, the top 10 participating
financial institutions 11 were as follows.

      1. Banco Popular de Puerto Rico
      2. J.P. Morgan Chase Bank
      3. U.S. Bank

9
 According to SSA, beneficiaries who use ETAs are included in the direct deposit numbers outlined
below.
10
  The ETA is available at nearly 400 banking institutions located throughout the United States, Puerto
Rico, the Virgin Islands, and the Pacific Territories. These ETA providers offer more than 11,000 branch
locations nationwide. ETA is not available internationally.
11
   “Electronic Transfer Account Reports & Statistics,” January 11, 2010, Financial Management Service
http://www.fms.treas.gov/eta/reports.html.
Page 6 - The Commissioner


      4. Union Bank of California
      5. Doral Bank
      6. Fifth Third Bank
      7. UMB Bank
      8. Ponce De Leon Bank
      9. Banco Santander
      10. Liberty Bank & Trust

Treasury provides an 800-number and Website 12 for beneficiaries to determine whether
there is a financial institution offering ETA service near the beneficiary’s residence. As
of February 2009, there were 106,570 reported active ETAs nationwide. 13

To determine whether SSA was informing beneficiaries of all domestic electronic
banking services options, we reviewed

      1. SSA’s Program Operations Manual System (POMS),
      2. interviews during the FY 2009 financial statement audit 14 field office visits,
      3. data from SSA’s payment systems, and
      4. information obtained from the “Direct Express® Cardholder Survey” conducted
         by the Treasury from March through May 2009.

RESULTS OF REVIEW
We determined SSA was consistently informing beneficiaries of the direct deposit
payment option. However, we found that SSA was not consistently informing
beneficiaries of the Direct Express® debit card. Specifically, we found SSA’s (1) Direct
Express® Publication 15 did not make the debit card available to every applicant; (2) field
offices were inconsistently informing new applicants about the Direct Express® debit
card; and (3) Online Retirement Application (iClaim) did not offer the Direct Express®
debit card to any individual applying for retirement benefits online. In contrast, we found
that the majority of beneficiaries using the Direct Express® debit card were satisfied
with the program. During our review, we also determined that SSA did not inform
beneficiaries about ETAs.

12
     http://eta-find.gov/searchzip.cfm.
13
  The 106,570 reported active ETAs nationwide included all accounts that receive direct deposit of
Federal funds including Federal wages and salaries, Social Security, SSI, Black Lung, Railroad
Retirement Board Retirement and Annuity, Department of Veterans Affairs, Compensation Pension and
Educational Benefits, Thrift Savings distributions, and any retirement payments made by the Office of
Personnel Management or any other Federal agency.
14
  Social Security Administration’s Fiscal Year 2009 Financial Statement Audit (A-15-09-19124),
November 2009.
15
     Publication No. 05-10073 “Get Your Payment Through the Direct Express® Card,” September 2008.
Page 7 - The Commissioner


SSA Publication Did Not Make the Direct Express® Debit Card Available to Every
Applicant

SSA Publication No. 05-10073 16 states, “If you already have an account with a financial
institution, ask us about Direct Deposit. Direct Deposit is the easy, convenient way for
your benefits to go automatically into your account.” Also, this publication states, “If you
don’t have a bank account and you wait anxiously every month for the mail carrier to
deliver your check from Social Security, the Direct Express® card is for you.” Even
though an applicant may already have his or her own bank account, given the
opportunity, he or she may choose to use a Direct Express® debit card to eliminate the
risk for an improper garnishment and/or reduce banking fees associated with a bank
account.

In a July 2008 report, 17 we determined whether financial institutions (FI) were deducting
service fees and garnishments from beneficiaries’ direct deposit, personal accounts.
We determined that 25 sampled FIs garnished $30,379,490 associated with
7,852,408 beneficiaries. Assuming all Social Security beneficiaries and FIs in the
United States exhibit similar characteristics, we estimate about $177.7 million in total
garnishments for the population of 45.9 million direct deposit beneficiaries in the United
States (as of February 2008). In addition, some in the banking industry expect banks
that rely heavily on overdraft fees to reintroduce monthly maintenance fees on checking
accounts for most customers. If customers keep a high balance, they may not incur the
new fees; otherwise, their banks may require them to pay a $5 to $10 monthly fee to
maintain a checking account. 18 These fees tend to fall disproportionately on low-income
or elderly customers who can least afford them.

We believe SSA missed the opportunity to allow all applicants and existing beneficiaries
the option to use the Direct Express® debit card.

Field Offices Were Inconsistently Informing Applicants

During the FY 2009 financial statement audit, we observed 74 initial claims interviews in
14 field offices in SSA’s Atlanta, Dallas, and Kansas City Regions. In 26 (35 percent) of
the interviews, the claims representative asked the beneficiary whether they were
interested in using the Direct Express® debit card. For the remaining 48 interviews
(65 percent), the claims representative did not ask the beneficiary whether they were
interested in using the Direct Express® program. In accordance with POMS, in
31 (65 percent) of these 48 interviews, the claims representative did not offer the Direct
Express® program because the beneficiary chose to use an existing bank account for
direct deposit. In the remaining 17 interviews, the claims representative did not offer the
16
     Id.
17
  Congressional Response Report: Financial Institutions Deducting Fees and Garnishments from Social
Security Benefits (A-15-08-28031), July 2008.
18
  Associated Press, Say goodbye to traditional free checking, October 19, 2010. The Wall Street Journal,
The New Bank Fees: How to Fight Back, June 19, 2010.
Page 8 - The Commissioner


applicant Direct Express® when he or she indicated he or she did not have a personal
bank account available for direct deposit. Table 2 provides a summary of the results
from our observations of claims interviews.

           Table 2: FY 2009 Financial Statement Audit Claims Interview Results
                                                                            # of
                                                                         Claimants         Percentage
 Yes, Direct Express® was offered:
 Number of Claimants Offered Direct Express®                                       26              35.14%


 No, Direct Express® was not offered:
 Number of Claimants Not Offered Direct Express®                                   48              64.86%
 Claimants not offered because already had an existing
 bank account for direct deposit                                                   31              41.89%
 Remainder of claimants not offered Direct Express®                                17              22.97%

 Number of Claimants Observed                                                      74            100.00%

POMS guidance indicates that Direct Express® should be offered to an applicant if they
fail to provide information for direct deposit into an existing account. Based on the
results of our field office observations, we determined field offices employees were not
consistently informing applicants of the Direct Express® debit card option, as required.

The Online Retirement Application Lacked the Option to Enroll in Direct Express®

We reviewed SSA’s online retirement application (iClaim) 19 and determined the program
did not offer Direct Express® to individuals applying for retirement benefits online.
There was an option in the application for the applicant to indicate he or she did not
have a bank account available for direct deposit; however, applicants who selected this
option were not offered the option of enrolling for the Direct Express® debit card.
Applicants who did not provide bank account information during the application process
and who did not require follow-up adjudication would receive their benefit payments in
the form of paper checks. Based on our review of iClaim, we determined that SSA was
neither informing its online applicants about nor giving them the opportunity to enroll in
the Direct Express® debit card.




19
  iClaim is SSA’s online tool that allows individuals the opportunity to complete and electronically sign an
online application for benefits.
Page 9 - The Commissioner


Majority of Users Were Satisfied with the Direct Express® Debit Card

In a July 21, 2009 press release, Treasury announced it had conducted a telephone
survey of a random sample of 614 Direct Express® debit cardholders from March
through May 2009. 20 The survey found that 95 percent of surveyed cardholders were
satisfied with the debit card. Further, 67 percent of the cardholders surveyed cited
convenience as why they were most satisfied with the card.

Regarding the fees charged by the Direct Express® program for certain transactions,
74 percent of cardholders said the fees were about the same or less than what they
paid in bank fees before switching to the card. Of the cardholders who cited higher
bank fees than what they had paid in the past, 9 of 10 were satisfied with the card, and
8 of 10 would recommend the card to a friend or family member. The survey also
stated that 14 percent of cardholders applied for Direct Express® when they applied for
SSA benefits. 21

ETAs Were Not Offered to Beneficiaries

Because of the limited number of program participants, we only examined SSA’s ETA
policy for informing beneficiaries. The ETA banking option is not included on the
applicant interview screen as a part of the initial claims interview process. SSA’s policy
states, “If individuals call with questions about ETA, you may assist them by accessing
the ETA website at http://www.eta-find.gov. The ETA website provides basic consumer
information about the ETA program and allows you to search for ETA providers by
financial institution name or geographic location. After a beneficiary has chosen an FI
[participating Financial Institution] and opened an ETA account, direct deposit can be
initiated using normal direct deposit procedures.” 22

Since a beneficiary must open an ETA by visiting a participating FI, SSA claims
representatives are not able to assist them in enrolling in the program. Because
applicants are apparently not informed about ETAs during the initial application process,
it is likely that few SSA beneficiaries are aware that this program exists. Per SSA, ETAs
are not universally available to all applicants. There is emphasis by Treasury for SSA to
offer Direct Express® over ETAs to individuals who do not have their own bank account
since there is a lack of consumer interest in ETAs due to their limited availability, the
inability to write checks, and a difficult enrollment process.




20
     Direct Express® Research Summary conducted by KRC Research, released June 2009.
21
  Guidance for enrolling claimants in the Direct Express® debit card was released to field offices in
September 2008 under POMS, GN 02402.007 Direct Express®.
22
     POMS, TC 16001.075 Electronic Transfer Account.
Page 10 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
Overall, SSA had not consistently informed its beneficiaries about the Direct Express®
electronic banking option. Also, beneficiaries are not informed about ETAs during the
application process. Treasury provided the following comment to our draft audit report,
“our position is that SSA offer direct deposit to those beneficiaries with bank accounts,
as the first and preferred electronic payment option. The Direct Express® debit card
and ETA accounts are targeted more to those individuals who do not have bank
accounts.” Since Treasury emphasizes applicants using their own bank account for
direct deposit before they are offered Direct Express®, most applicants will not be
informed of the alternate banking options. Therefore, we recommend that SSA:

1. Update SSA Publication Number 05-10073, Get Your Payment Through the Direct
   Express Card®, to allow all applicants and existing beneficiaries the option of
   selecting Direct Express.

2. Ensure recipients of Social Security benefit payments are informed of the three
   electronic banking options.

3. Update iClaim to include the option of applying for Direct Express® in the
   application.

AGENCY COMMENTS AND OIG RESPONSE
SSA disagreed with Recommendation 1 and agreed with Recommendations 2 and 3.
With regard to Recommendation 1, SSA stated that the Agency worked with Treasury to
develop Direct Express® for beneficiaries who do not have bank accounts. SSA does
not discourage others who may select this banking option but maintains that direct
deposit is the better choice for beneficiaries with bank accounts. The full text of SSA’s
comments can be found in Appendix C.

Although the Agency disagreed with our first recommendation, we continue to believe
that all individuals receiving benefit payments should be educated about all available
banking options so they can make the best decision for their circumstances.

In response to SSA’s comments, we do not agree that information on bank fees is
speculative or anecdotal. There have been several recent articles on banks increasing
revenue by charging more and higher fees for example, “…nearly $1.5 million a month
in fees by charging California welfare recipients to withdraw their benefits using ATMs
and debit cards.”23 Further, several banks have established or increased monthly
service fees in the past year. For example, starting in February 2010, Citibank
assessed a monthly service fee of $7.50 on customers’ balances that averaged less
than $1,500 during the month. Similarly, Bank of America also raised its monthly fee on


23
     Chronicle Sacramento Bureau, Welfare recipients pay banks millions in fees, October 15, 2010.
Page 11 - The Commissioner


its checking accounts from $5.95 to $8.95 in June 2009. Wells Fargo also charges its
customers between $5 and $15 in monthly service fees.

OTHER MATTERS
In the June 17, 2010 Federal Register, Treasury proposed making most Social Security
and other Federal benefit payments by direct deposit by 2013. Americans who file
claims for benefit payments on or after March 1, 2011 will receive them by direct deposit
or be enrolled in the Government’s Direct Express® debit card program if they do not
provide bank account information. Beneficiaries who file claims before this date will
have to switch to direct deposit or the debit card by March 1, 2013. This plan should
save taxpayers about $400 million in processing, postage, and paper costs for Federal
benefit payments in the first 5 years. SSA will need to assist recipients of Social
Security payments in transitioning to electronic banking by educating individuals on the
differences of each banking option.

In September 2010, Treasury announced that it will launch a new pilot program to help
capitalize on tax refund season as an opportunity to provide unbanked and
underbanked Americans with access to safe, low-cost financial accounts. This pilot will
deliver targeted offers to certain low- and moderate-income individuals to sign up for
new accounts with debit card access at tax time to receive their refunds through direct
deposit. It will also test offering accounts that can be used year-round to deposit other
sources of income, store money safely, make purchases, pay bills, withdraw cash, and
build savings. This pilot will build on the President’s continuing efforts to assist the
unbanked and underbanked, as well as empower Americans to make informed financial
decisions. While this pilot relates to Internal Revenue Service refund recipients, it
demonstrates the initiative to help low- and moderate-income Americans obtain access
to safe and appropriate financial services and products.

In addition to providing a draft of this report to SSA for comment, we provided a copy to
Treasury for comment. During its review of our report, Treasury provided the following
information, after our evaluation.

In August 2010, Treasury sponsored Direct Express® research conducted by an
independent firm, KRC Research. The firm conducted 15-minute telephone surveys of
a random sample of 600 Social Security check recipients and 600 adults soon to retire
and be eligible for Social Security. The results of the survey demonstrated that those
surveyed trust SSA to provide them information; however, 4 in 10 new unbanked SSA
recipients said they did not sign up for the Direct Express® card initially because they
did not know it was available or know enough about the program.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
Act           Social Security Act
ATM           Automated Teller Machine
DCIA          Debt Collection Improvement Act
EFT           Electronic Funds Transfer
ETA           Electronic Transfer Account
FI            Financial Institution
FY            Fiscal Year
iClaim        Online Retirement Application
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
OASDI         Old-Age, Survivors and Disability Insurance
OIG           Office of the Inspector General
SSA           Social Security Administration
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                            Appendix B

Scope and Methodology
Our objective was to determine whether the Social Security Administration (SSA) was
informing beneficiaries of all domestic electronic banking services options. Specifically,
we reviewed (1) SSA’s Program Operations Manual System (POMS), (2) claimant
interviews during the Fiscal Year (FY) 2009 financial statement audit field office visits,
(3) data from segment 11 of the Master Beneficiary Record and Payment History
Update System, and (4) information obtained from a survey conducted by the
Department of the Treasury (Treasury) entitled “Direct Express Cardholder Survey,”
which was conducted from March through May 2009.

To accomplish our objective, we:

   •   Reviewed applicable Federal laws and regulations and SSA’s POMS.

   •   Observed SSA field office staff during initial claims interviews between April and
       June 2009 as a part of the FY 2009 financial statement audit, to determine
       whether they were informing beneficiaries of the Direct Express banking option.

   •   Obtained and analyzed statistical data from Treasury and SSA for the number of
       beneficiaries enrolled in the three electronic banking options.

   •   Obtained and analyzed the Treasury telephone survey results for cardholder
       satisfaction with the Direct Express debit card.

We determined that the computerized data used during our review were sufficiently
reliable given our evaluation objective, and the intended use of the data should not lead
to incorrect or unintentional conclusions.

We performed our evaluation at SSA Headquarters from March through May 2010 in
Baltimore, Maryland. The entity reviewed was the Office of Budget, Finance and
Management. In addition, during the FY 2009 financial statement audit, we observed
interviews during our site office visits at five field offices in the Atlanta Region, five field
offices in the Dallas Region, and four field offices in the Kansas City Region. We
conducted our review in accordance with the Council of the Inspectors General on
Integrity and Efficiency’s Quality Standards for Inspections.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM

Date:      October 8, 2010                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “The Social Security Administration
           Informing Beneficiaries of Domestic Electronic Banking Options” (A-15-09-19075)--
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at (410) 966-6975.

           Attachment




                                                     C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION INFORMING
BENEFICIARIES OF DOMESTIC ELECTRONIC BANKING OPTIONS”
(A-15-09-19075)

Thank you for the opportunity to review the subject report. We offer the following comments.

SUBSTANTIVE COMMENTS

We do not agree with your observation that someone selecting Direct Express would necessarily
avoid banking fees. Financial institutions may impose fees with both direct deposit and Direct
Express. It is speculative to state, “some in the banking industry expect banks … to reintroduce
monthly maintenance fees” and “there is a good chance their bank will soon ask them to pay $5
to $10 per month for the privilege of keeping a checking account.” Your evidence is anecdotal
and does not support your implication that beneficiaries would necessarily be disadvantaged by
selecting direct deposit over Direct Express.

On page 7, 1st paragraph, 4th sentence, you state in part:

“Even though an applicant may already have his or her own bank account, given the opportunity,
he or she may choose to use a Direct Express debit card to eliminate the risk for an improper
garnishment and/or reduce banking fees associated with a bank account.”

Pending regulatory actions will likely mitigate your concerns about garnishment of benefits. On
April 19, 2010, the Department of Treasury issued a proposed rule (Federal Register/Vol. 75,
No. 74, 20299) titled “Garnishment of Accounts Containing Federal Benefit Payments.” The
rule would “implement statutory restrictions on the garnishment of Federal benefit payments”
and “establish procedures that financial institutions must follow when a garnishment order is
received for an account …”

COMMENTS ON RECOMMENDATIONS

Recommendation 1

“Update SSA Publication No. 05-10073, Get Your Payment Through the Direct Express Card, to
allow all applicants and existing beneficiaries the option of selecting Direct Express.”

Comment

We disagree and do not plan to revise the publication. We worked with Treasury and developed
it specifically for beneficiaries who do not have bank accounts. We offer Direct Express as an
option for those beneficiaries, but we do not prevent or discourage others who may select that
option. We maintain that direct deposit is the better choice for beneficiaries with bank accounts.
Reasons include: they are already familiar with their financial institutions; it is easier for them to
enroll; and they are able to write checks – a service not offered with Direct Express.


                                                 C-2
Recommendation 2

“Ensure recipients of Social Security benefit payments are informed of the three electronic
banking options.”

Comment

We agree. We currently provide information about the three banking options on our website
www.socialsecurity.gov. In addition, Treasury regularly informs the public about electronic
payment options when it sends out checks; and for all new beneficiaries, we provide a
publication explaining all three options. As a reminder, and in anticipation of the upcoming
direct deposit mandate, we will provide information on all electronic payment options to field
offices prior to the end of the calendar year.

Recommendation 3

“Update the Online Retirement Application (iClaim) to include the option of applying for Direct
Express in the application.”

Comment

We agree. We are adding the option for Direct Express to the Online Retirement Application
(iClaim). We expect to implement this in fiscal year 2011.




                                               C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Mark Meehan, Audit Manager, Financial Audit Division

Acknowledgments

In addition to those named above:

   Lori Lee, Auditor

   Florence Wolford, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-09-19075.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
